No. 19-930

dn the
Supreme Court of the United Stutes

 

CIC Services, LLC,

Petitioner,
v.

Internal Revenue Service,

Department of Treasury,

United States of America,
Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF OF AMICUS CURIAE
PROFESSOR KRISTIN E. HICKMAN
IN SUPPORT OF PETITIONERS

Stephen M. West, states that all parties required to
be served have been served and that three true and
correct copies of the Brief of Amicus Curiae Professor
Kristin E. Hickman in Support of Petitioners were
served on the persons listed below on the 22nd day of
July, 2020, by depositing them with the United
States Post Office, with First Class Postage prepaid.

 

2014 - Bachman Legal Printing Ml (612) 339-9518 M@ 1-800-715-3582 ll Fax (612) 337-8053
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square

8th Floor South, PMB #706
Boston, MA 02109

Jeffrey B. Wall

Acting Solicitor General

United States Department of Justice

950 Pennsylvania Avenue, N.W., Room 5616
Washington, D.C. 20530-0001

Cl

Stephen M. West

Subscribed and sworn to before me this 22nd day
of July, 2020.

  

zi} NOTARY PUBLIC- MINNESOTA s
rs oa ‘My Commission Expires Jan. 34, 2025 8

    
